OIG Investigative Reports, Bangor, ME., February 04, 2011 -   South Portland Man Sentenced for Harboring and Transporting Illegal Aliens and Tax Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
U.S. Department of Justice
United States Atorney
District of Maine
Margaret Chase Smith Federal Building
(207) 945-0373
202 Harlow Street, Room 111      TTY (207)
945-0307
Bangor, ME  04401           Fax (207) 945-0319
www.usdoj.gov/usao/me
For Immediate reoease
February 04,2011
Contact:  Nancy Torresen
Assistant United States Attorney
Tel: (207) 945-0373
South Portland Man Sentenced for Harboring and Transporting Illegal Aliens and Tax Fraud
Bangor, Maine:  United States Attorney Thomas E. Delahanty II announced that  Benjamin J. Guiliani, Sr. , 63, of South Portland, was sentenced on February 3, 2011, in U.S. District Court in Bangor, Maine, to 19 months imprisonment, 3 years supervised release, a special assessment of $425, and was ordered to pay $230,592.61 in restitution.  Guiliani pled guilty on May 25, 2010 to Harboring/Transporting Known Illegal Aliens, Social Security Fraud, Tax Evasion, Failure to File Income Tax Return and Student Assistance Fraud.
Court records reveal that the investigation began in 2004, when five illegal aliens were apprehended by U.S. Customs and Border Protection in Fort Fairfield, Maine.  Guiliani was the president, founder and sole shareholder in Azteca Consulting Associates, Inc. ("Azteca"), which provided labor to businesses in Maine, New Hampshire and Vermont.  Guiliani provided his clients with scores of workers that he knew were illegal aliens. Guiliani provided fraudulent work documents and a Social Security card for at least one of the illegal aliens. Guiliani charged his client companies for finder's fees, transportation and other expenses associated with the workers.
From 2002 to 2005, Guiliani had personal income totaling almost $500,000, and he never filed personal income tax returns.  Azteca did not file corporate returns despite gross receipts of over $400,000 for the same period. Guiliani pleaded guilty to tax evasion and failure to file taxes on behalf of Azteca.  The total outstanding tax obligation for that period is over $95,000.
Guiliani also submitted false tax returns to support his son's Free Application for Federal Student Aid (FAFSA) intending to mislead the Department of Education into believing he had significantly less income than he actually had.
As part of the resolution of his case, Guiliani agreed to pay the IRS $214,269 for taxes due, penalties and interest and agreed to pay the Department of Education $14,736, and the Maine Department of Education $1,587.  "Folks thinking about cheating on their taxes should stop in their tracks and consider the risks," said William P. Offord, Special Agent in Charge, IRS Criminal Investigation. "Those risks include going to prison, being branded a convicted felon for the rest of their lives, and paying back all the taxes owed plus steep penalties and interest."
The investigation was conducted jointly by U.S. Immigration and Customs Enforcement, Internal Revenue Service, and the Offices of the Inspector General for the Social Security Administration and the Department of Education.
###
Top
Printable view
Last Modified: 06/03/2011
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov